HHS/OIG-Audit--"Beneficiary Hospice Eligibility at Samaritan Care, Inc., Southfield, Michigan, (A-05-97-00015)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Beneficiary Hospice Eligibility at Samaritan Care, Inc., Southfield,
Michigan," (A-05-97-00015)
September 11, 1998
Complete Text of Report is available in PDF format
(139 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This audit evaluated Medicare eligibility determinations of terminal illness
for beneficiaries enrolled in hospice care at Samaritan Care, Inc. Working with
us, physicians from a peer review organization reviewed the medical records
for 180 beneficiaries and determined that 130 beneficiaries were not eligible
for hospice coverage. As a result, overpayments of Medicare funds to the hospice
totaled approximately $2.6 million for these beneficiaries for the period November
1, 1993 through March 31, 1995. Ninety-eight percent of the 130 ineligible beneficiaries
were nursing home patients. This points out the continuing problem with hospice
coverage in nursing facilities as an underlying factor that contributes to high
levels of beneficiary ineligibility. The Health Care Financing Administration
should give high priority to developing a legislative proposal to address this
issue.